SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 312 853 7000
RHOCHMAN@SIDLEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
CAPITAL CASE
No. 20-1084
Jefferson S. Dunn, Commissioner, Alabama Department of Corrections,
v.

Petitioner

Matthew Reeves,
Respondent.
I, Robert N. Hochman do hereby certify that, on this 12th day of April, 2021, I
caused one copy and an electronic copy of the Brief in Opposition in the foregoing
case to be served electronically and by Federal Express, postage prepaid, on the
following party:
Edmund Gerard LaCour Jr.
Office of the Attorney General
501 Washington Ave
Montgomery, AL 36130
(334) 353-2196
edmund.lacour@alabamaag.gov
/s/ Robert N. Hochman
ROBERT N. H OCHMAN
SIDLEY AUSTIN LLP
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

